                                   June 23, 2006



MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    MEMORANDUM REPORT: AUDIT OF NMSS’
                            PROCEDURES FOR PROCESSING INSPECTION
                            GUIDANCE (OIG-06-A-13)


As part of the Office of Inspector General’s (OIG) audit on fuel cycle facilities,
auditors identified an issue that warrants your attention. The Office of Nuclear
Materials Safety and Safeguards (NMSS) lacks adequate management controls
to ensure that new or revised inspection guidance, such as inspection manual
chapters, inspection procedures, and temporary instructions are published,
noticed, and implemented.

NMSS can ensure that new or revised inspection procedures within its purview
are published, noticed, and implemented by (1) revising its policy and procedures
letter for processing inspection guidance and (2) reaching a formal agreement on
roles, responsibilities, and authorities between NMSS and the Office of Nuclear
Reactor Regulation (NRR).

BACKGROUND

Through NMSS, the Nuclear Regulatory Commission (NRC) regulates the uses
of nuclear materials in medical, industrial, and academic settings; facilities that
produce nuclear fuel; and the transportation, storage, and disposal of nuclear
materials and waste. The agency ensures safety in these areas by using a
combination of regulatory requirements including inspection, assessment of
performance, and enforcement. NRC obtains objective information through its
inspection program that permits the agency to assess whether its licensees are
operating safely in accordance with NRC regulations.

NRC’s inspection manual is a compilation of documents that defines the policies,
procedures, and programs for conducting inspections. The inspection manual
includes, but is not limited to, the following:
                                 Audit of NMSS’ Procedures for Processing Inspection Guidance




   •   Inspection Manual Chapters - Documents containing written administrative
       or inspection program statements of policy. A manual chapter for an
       inspection program defines the program through a listing of inspection
       procedures, which is normally appended to the manual chapter.

   •   Inspection Procedures – Description of the activities to be performed by
       an inspector, including the inspection requirements, inspection guidance,
       and estimate of resources needed.

   •   Temporary Instructions - Temporary inspection procedures focused on
       current safety issues or concerns. Temporary Instructions are issued to
       supplement an inspection program and are generally in effect for 12
       months, but not longer than 24 months.

PURPOSE

The audit’s objective was to determine whether NMSS has assurance that its
inspection guidance is effectively and efficiently published, noticed, and
implemented.

FINDING

While NMSS has policy and procedures for processing inspection guidance, it
lacks the management controls to ensure that new or revised inspection
guidance under its purview is published, noticed, and implemented. Because
NMSS’ procedures are incomplete and dependent on informal understandings,
NMSS is dependent on people and not a process. As a result, managers and
inspectors risk using outdated or incorrect inspection guidance and not carrying
out inspections as expected.

Inspection Guidance Policy and Management Controls

NRC Manual Chapter 0040 (MC 0040), Preparing, Revising, and Issuing
Documents for the NRC Inspection Manual, is agencywide guidance that
establishes the format and basic requirements for preparing and obtaining
comments for all NRC inspection manual documents. MC 0040 designates NRR
as the overall manual coordinator for updating the inspection manual and
assuring the availability of inspection program documents on NRC’s website.

NMSS has guidance, Policy and Procedures Letter 1-76 (1-76), NMSS
Procedures for Processing Inspection Manual Chapters and Inspection
Procedures, that specifically designates the Rulemaking and Guidance Branch
(RGB), within the Division of Industrial and Medical Nuclear Safety, with
coordinating the review and revision of all inspection-related documents under




                                         2
                                      Audit of NMSS’ Procedures for Processing Inspection Guidance



NMSS purview. Within RGB, a staff member is designated as the coordinator for
tracking inspection guidance status, needed reviews, and due dates. More
specifically, the RGB coordinator is responsible for 1) initiating and coordinating
the review of new and revised inspection-related documents by or for the
responsible NMSS technical division, 2) coordinating requests for comment to
organizations other than the responsible technical division, and 3) working with
the responsible technical division as needed or requested to resolve these
comments.

Once all the comments are resolved and the document is reviewed, NMSS is to
take the final steps to approve the inspection guidance. The responsible NMSS
technical division’s management should review, concur, and forward the final
draft document to the RGB coordinator. The RGB coordinator should then
prepare a package containing a completed Document Issuing Form,1 the latest
redline/strikeout version, and a comment resolution summary. The RGB
coordinator is to forward this package to the RGB section and branch chiefs for
review and signature before forwarding the completed package to NRR.

To ensure that programs are implemented as intended, agency management has
the responsibility for establishing and maintaining internal controls. Internal
controls, which are synonymous with management controls, are defined as
organization, policies, and procedures and are tools to help program managers
achieve results and safeguard the integrity of their programs. Establishing and
maintaining management controls to achieve the objectives of effective and
efficient operations and compliance with applicable laws and regulations is the
goal of the Office of Management and Budget’s Circular A-123 (A-123), as
revised, Management's Responsibility for Internal Control. According to A-123,
management should have a clear, organized strategy with well-defined
documentation processes, and information should be communicated to relevant
personnel at all levels within an organization. Management controls should
support the effectiveness and integrity of every step of the process and provide
continual feedback to management.

The Inspection Guidance Procedures Lack Adequate Management Controls

NMSS does not have adequate management controls to ensure that inspection
guidance is published, noticed, and implemented. NMSS staff do not always
follow the procedures set forth in 1-76 for publishing inspection guidance.
Furthermore, the procedure for noticing and implementing inspection guidance
lacks a consistent method, tracking is not all encompassing, and feedback
throughout the process is stymied. In addition, staff are relying on an informal
understanding reached by current NMSS and NRR staff regarding roles,
responsibilities, and authorities between the two offices.




1
 Document Issuing Form (DIF) – The DIF is the form that submits the final revised document to
NRR for incorporation into the NRC inspection manual and eventual posting on the NRC website.

                                              3
                                       Audit of NMSS’ Procedures for Processing Inspection Guidance



       Publishing Inspection Guidance

NMSS staff members do not always follow the policy and procedures set forth in
1-76. While the RGB coordinator is responsible for initiating and coordinating the
review of new and revised inspection guidance, staff members sometimes
bypass the coordinator and submit documents directly to NRR. Staff gave a
variety of reasons for bypassing the RGB coordinator. For example, staff said
that sending documents through RGB is a burden and delays issuing the
guidance. However, if the RGB coordinator is not aware of inspection guidance
documents, the coordinator cannot include the documents in his tracking system
thus reducing management’s control over such documents.

For example, OIG informed NMSS of an incident involving an inspection manual
chapter that appeared to be outside of management’s control. According to
language in NUREG-1100, Volume 21, Performance Budget, Fiscal Year 2006,
inspection manual chapter 2600 had been revised in fiscal year 2004. However,
during the course of this audit, the updated version of 2600 had not yet been
posted to the agency’s inspection manual website. The RGB coordinator thought
that it was to be posted on the website and had no information as to the status of
2600. The revised inspection manual chapter 2600 had been misplaced for over
a year and a half,2 with resulting confusion over who actually has responsibility
for the document or what is being done to it. Furthermore, all inspectors are not
using the same version of inspection manual chapter 2600.

While inspection manual chapters are important, inspectors are more concerned
with the inspection procedures. Inspection manual chapters show inspectors
how to run a program and contain tables that show the inspection procedures
and associated hours. Inspection procedures identify where the inspectors
should assign their time. More specifically, inspection procedures identify what
inspectors should look at and how long it will take them. According to an NMSS
staff member, many inspection procedures associated with inspection manual
chapter 2600 are being revised. And, the revisions will follow the same process
used for revising inspection manual chapter 2600. While the confusion with 2600
is not critical, NRC’s inspection program could be adversely affected by following
the same path to revise inspection procedures.

       Noticing and Implementing Inspection Guidance

The procedure for noticing and implementing inspection guidance lacks a
consistent method. Some staff learn that inspection guidance has been posted
to the NRC website because the NRR inspection manual coordinator usually
sends an e-mail to the RGB coordinator and other NMSS staff advising them of
the posting. Other staff noted that they learn inspection guidance has been
posted by checking NRC’s website. Staff also have differing opinions on when
inspection guidance becomes official and should be implemented. Most staff
believe that revised inspection guidance is not official until they are informed of

2
  Effective May 9, 2006, the revised inspection manual chapter 2600 was posted to the agency’s
inspection manual website.

                                               4
                                   Audit of NMSS’ Procedures for Processing Inspection Guidance



such by their management and the inspection guidance is posted on NRC’s
website. However, other staff commented that inspection guidance becomes
official once NMSS management approves it.

       Lack of Tracking and Feedback

The RGB coordinator’s method for tracking inspection guidance is not all
encompassing because the database 1) tracks inspection guidance only to the
point of forwarding the guidance document to NRR for publication and 2) does
not include data on inspection guidance status should NRR reject the document
and return it to NMSS for additional work. Moreover, the RGB coordinator’s
Access-based tracking system presents challenges as it resides only on the RGB
coordinator’s desktop, making it impossible for anyone but the RGB coordinator
to access the database.

Shortcomings in the guidance and tracking system have manifested into a lack of
feedback. RGB officials stated that they do not keep the responsible technical
division informed after forwarding a document package to NRR, thus making the
staff involved in the process unsure as to the status of a document after it has left
their control. NMSS staff commented that once they forward a document to
RGB, they receive no information regarding status of the draft inspection
guidance.

       Staff Rely on Informal Understanding Between NMSS and NRR

NRR is not bound by NMSS’ 1-76. The 1-76 is a policy and procedure letter for
NMSS staff only and does not provide guidance on the respective roles,
responsibilities, and authorities between NMSS and NRR. While the NRR
inspection manual coordinator has no guidance stating from whom in NMSS he
should accept inspection guidance, he has agreed to accept it only from the RGB
coordinator. The mutual understanding between the RGB coordinator and the
NRR inspection manual coordinator (who is only temporarily in this position) is
based on a discussion conducted by the two staff members. Thus, any
agreement involving the offices is presently based upon an informal
understanding between current personnel in NRR and NMSS and may not be
adhered to by the next person filling either of the NMSS or NRR positions.

Recently, the informal understanding was not followed as demonstrated by NRR
accepting for publication a temporary instruction directly from an NMSS technical
division, by-passing the RGB coordinator.

Inspectors Risk Using Outdated Inspection Guidance

Due to inadequate procedures for processing and tracking inspection guidance
and the reliance on informal understandings, NMSS is dependent on people and
not a process. While 1-76 identifies the initiation process for creating or revising
inspection guidance, it does not provide policy and procedures to the point that
inspection guidance should be noticed and implemented by staff. Furthermore,


                                           5
                                  Audit of NMSS’ Procedures for Processing Inspection Guidance



due to the lack of guidance or a formal agreement between NMSS and NRR,
there have been two recent incidents that reduced the effectiveness and
efficiency in the system for publishing, noticing, and implementing new and
revised inspection guidance. As a result, managers and inspectors risk using
outdated or incorrect inspection guidance and not carrying out inspections as
management expects.

RECOMMENDATIONS

The Office of Inspector General recommends that the Director, NMSS:

     1. Revise the NMSS policy and procedures letter 1-76 for processing
        inspection guidance to include the full scope of activities and
        management controls associated with publishing, noticing, and
        implementing inspection guidance.

     2. Formalize an agreement between NMSS and NRR on roles,
        responsibilities, and authorities regarding the processing of inspection
        guidance.

AGENCY COMMENTS

At an exit meeting on June 14, 2006, NRC officials agreed with the report’s
findings and recommendations. NRC provided editorial suggestions for the
report, which OIG incorporated as appropriate.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken
or planned are subject to OIG follow-up, as stated in the attached instructions.




                                          6
                                Audit of NMSS’ Procedures for Processing Inspection Guidance



SCOPE AND METHODOLOGY

To accomplish the audit’s objective, the OIG audit team reviewed NRC Manual
Chapter 0040, Preparing, Revising, and Issuing Documents for the NRC
Inspection Manual; NMSS’ Policy and Procedures Letter 1-76, NMSS
Procedures for Processing Inspection Manual Chapters and Inspection
Procedures; and the Office of Management and Budget’s Circular A-123, as
revised, Management's Responsibility for Internal Control. The audit team
reviewed other related documentation and interviewed managers and staff
(including resident inspectors) in NMSS, NRR, and Region II. This work was
conducted from January 2006 through April 2006 in accordance with generally
accepted Government auditing standards and included a review of internal
controls related to the objective of this audit. The work was conducted by
Anthony Lipuma, Team Leader; Sherri Miotla, Audit Manager; James
McGaughey, Senior Management Analyst; and Yvette Russell, Senior Auditor.

Attachment: As stated

cc:   Chairman Diaz
      Commissioner McGaffigan
      Commissioner Merrifield
      Commissioner Jaczko
      Commissioner Lyons




                                        7
Electronic Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Janet R. Schlueter, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
